CORRECTED AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19-7
X
SEILA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Noel Reyes, being duly sworn according to law and being over the age of 18, upon
my oath depose and say that:
I am retained by Counsel of Record for Amici Curiae.
That on the 22" day of January, 2020, I served the within Brief of Amici Curiae
Rachel E. Barkow, Kirti Dada, Richard L. Revesz, and Robert B. Thompson in Support of
the Court-Appointed Amicus in the above-captioned matter upon:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
Attorneys for Petitioner
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Noel J. Francisco
Solicitor General
United States Department of Justice
Attorneys for Respondent
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Paul D. Clement
Kirkland & Ellis LLP
Court-Appointed Amicus Curiae
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual.
That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Brief of Amici Curiae Rachel E. Barkow, Kirti Dada, Richard L.
Revesz, and Robert B. Thompson in Support of the Court-Appointed Amicus through the
United States Postal Service by Express Mail, postage prepaid. In addition, the brief has
been submitted through the Court's electronic filing system.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 22" day of January, 2020.

to and subscribed before me this 22"d day of January, 2020.

Eli.

ele dez

A

Notary Pu • lic State of New York
No. 24-4 •9661
Qualifies in Kings County
Commission Expires Aug. 31, 2021
#294002

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

